Wiggin and Dana LLP
One Century Tower
265 Church Street
New Haven, Connecticut
06510
www.wiggin.com

Jonathan M. Freiman
203.498.4584
203.782.2889 fax
jfreiman@wiggin.com

September 4, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Federal Republic of Germany, et al., v. Alan Philipp, et al., No. 19-351

Dear Mr. Harris,
Pursuant to Supreme Court Rule 32.3, Petitioners Federal Republic of Germany and Stiftung
Preussicher Kulturbesitz propose to lodge with the Court non-record materials in connection
with the above-referenced case.
On July 2, 2020, the Court granted the petition for writ of certiorari in this case. Petitioners
plan to file their opening brief today. Oral argument has not yet been scheduled.
This case asks whether the so-called expropriation exception to the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1605(a)(3), permits suit against foreign sovereigns in U.S. court for
their alleged takings of their own nationals’ property within their own borders. It also asks
whether courts may abstain from exercising jurisdiction over such cases based on
international comity. The principles of international law bear directly on both these questions.
Also relevant are the potential diplomatic and foreign-relations consequences of U.S. courts’
exercising jurisdiction in this case.
In the last week, Petitioner Federal Republic of Germany has been copied on diplomatic
notes verbales sent by five foreign states to the United States regarding this case. Specifically,
the French Republic, the Kingdom of Belgium, the Kingdom of Spain, the Republic of Austria,
and the Swiss Confederation have apprised the United States (and the Federal Republic of
Germany) of their views that U.S. courts’ exercise of jurisdiction in this case is inconsistent with
the principles of the international law of state immunity and with international comity. These
states have also noted the potential harm to international relations that could be done by U.S.
courts’ hearing this case.
Because these diplomatic notes were only recently sent to the United States, they are not part
of the record. Petitioner believes these views of major U.S. allies are highly relevant to the
Court’s resolution of this case and should be considered by the Court. Petitioners therefore
respectfully request that these diplomatic notes be lodged with the Court and circulated to
Chambers.

C O N N E C T I C U T I N E W Y O R K I P H I L A D E L P H I A I WA S H I N G TO N , D C I PA L M B E A C H

September 4, 2020
Page 2

Sincerely,
/s/ Jonathan M. Freiman
Jonathan M. Freiman

Cc: All parties of record

